No. 20-303

 

 

IN THE

Supreme Court of the United States

UNITED STATES OF AMERICA,

Petitioner,
v.

JOSE LUIS VAELLO-MADERO,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

BRIEF OF AMICI CURIAE PLAINTIFFS IN

PENA MARTINEZ V. U.S. DEPARTMENT OF

HEALTH & HUMAN SERVICES IN SUPPORT
OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,524 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 9, 2020.

 

Colin Casey Hogan
Wilson-Epes Printixg Co., Inc.
